No. 19-484
IN THE SUPREME COURT OF THE UNITED STATES
JOHN DOE 1, ET AL., PETITIONERS
V.

FEDERAL ELECTION COMMISSION
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE RESPONDENT IN OPPOSITION, via first-class mail, postage
prepaid, this 14th day of February 2020.
ISee Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contain6340 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct. Executed on
February 14, 2020.

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-000 1
(202) 514-2217
February 14, 2020
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief If that is acceptable to you, please fax your brief to Charlene Goodwin, Case
Management Supervisor, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefsUSDOJ.gov. Ms. Goodwin's phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

19-0484
JOHN DOE 1, ET AL.
FEC

PAUL D. CLEMENT
KIRKLAND & ELLIS LLP
1301 PENNSYLVANIA AVE., NW
WASHINGTON, DC 20004
202-389-5000
PAUL.CLEMENT@KIRKLAND.COM
MICHAEL DRY
VINSON & ELKINS
2200 PENNSYLVANIA AVE., NW
SUITE 500 WEST
WASHINGTON, DC 20037
WILLIAM W. TAYLOR, III
ZUCKERMAN SPAEDER LLP
1800 M STREET, NW
SUITE 1000
WASHINGTON, DC 20036

